1a
APPENDIX
Appendix A
Summary Order of
The United States Court of Appeals for
The Second Circuit
Affirming Dismissal
SUMMARY ORDER
CHARLES MEYERS, JOHN
STREKAL, MILES WALSH,

BAKER,

JUSTIN

Plaintiffs-Appellants,
v.
CITY OF NEW YORK, MICHAEL R. BLOOMBERG,
INDIVIDUALLY AND IN HIS OFFICIAL CAPACITY
AS FORMER MAYOR OF THE CITY OF NEW
YORK, CHIEF OF DEPARTMENT JOSEPH J.
ESPOSITO, INDIVIDUALLY AND IN HIS
OFFICIAL CAPACITY, NYPD COMMISSIONER
RAYMOND KELLY, INDIVIDUALLY AND IN HIS
OFFICIAL CAPACITY,
Defendants-Appellees.
19-892
Appeals from the United States District Court for the
Southern District of New York in
No. 1:14-cv-9142 (ALC), Judge Andrew L. Carter.
Decided: April 30, 2020
PRESENT:
RALPH K. WINTER,

2a
RICHARD C. WESLEY,
RICHARD J. SULLIVAN,
Circuit Judges.
Appeal from the United States District Court
for the Southern District of New York (Carter, J.).
UPON DUE CONSIDERATION, IT IS
HEREBY ORDERED, ADJUDGED, AND DECREED
that the judgment of the district court is AFFIRMED.
Plaintiffs-Appellants appeal the district court’s
orders and judgment dismissing Plaintiffs’ 42 U.S.C.
§ 1983 claims in favor of the City of New York (the
“City”), former mayor Michael Bloomberg (the
“Mayor”), former New York Police Department
(“NYPD”) Commissioner Raymond Kelly, former Chief
of Department of the NYPD Joseph J. Esposito, and
individual officers employed by the NYPD (collectively
with the City, the Mayor, Kelly, and Esposito,
“Defendants”). We assume the parties’ familiarity
with the underlying facts, procedural history, and
issues on appeal, to which we refer only as necessary
to explain our decision.
Between September 2011 and November 2011,
a group of protestors known as “Occupy Wall Street”
started a demonstration to protest what they saw as
rising economic inequality and the improper influence
of corporations on government. To amplify that
message, hundreds of protestors, Plaintiffs among
them, took up residence in Zuccotti Park (the “Park”),
a privately-owned plaza in Manhattan’s Financial
District.

3a
Over the course of many weeks, the protestors
erected tents and other structures – which Defendants
say violated the City’s sanitation laws – and limited
the public’s access to the Park. In time, crime and
hazardous conditions began to proliferate, including
the use of gasoline and diesel generators near large
quantities of flammable materials.
On November 15, 2011, NYPD officers ordered
all persons present in the Park to leave with their
personal belongings or face arrest. While many
protestors complied with the dispersal order,
approximately 150 (including Plaintiffs) refused to
leave and were subsequently arrested. Plaintiffs
thereafter sued, alleging violations of their First,
Fourth, and Fourteenth Amendment rights.
Ultimately, the district court entered judgment on the
pleadings in favor of Defendants, finding that
Plaintiffs had failed to allege a constitutional
violation. This appeal followed.
“We review de novo a district court’s decision on
a motion to dismiss or for judgment on the pleadings,
accepting all factual allegations as true and drawing
all reasonable inferences in the plaintiff’s favor.”
Hogan v. Fischer, 738 F.3d 509, 515 (2d Cir. 2013). In
so doing, we may consider “the complaint, the answer,
any written documents attached to them, and any
matter of which the court can take judicial notice for
the factual background of the case.” L-7 Designs, Inc.
v. Old Navy, LLC, 647 F.3d 419, 422 (2d Cir. 2011)
(quoting Roberts v. Babkiewicz, 582 F.3d 418, 419 (2d
Cir. 2009)). “A complaint is [also] deemed to include .
. . materials incorporated in it by reference[] and
documents that, although not incorporated by

4a
reference, are integral to the complaint.” Id. (internal
quotation marks omitted).
Discussion
Though Plaintiffs set forth a number of
different grounds for relief, the gravamen of their
claims is that the NYPD’s dispersal order, and the
arrests that followed, were part of an unlawful scheme
to muzzle the protestors and deprive them of their
right to remain in the Park. Upon review, we conclude
that the district court properly granted judgment on
the pleadings in favor of Defendants because Plaintiffs
have failed to plead any cognizable constitutional
violations.
I. False Arrest and Malicious Prosecution
“Probable cause is a complete defense to a
constitutional claim of false arrest” and “continuing
probable cause is a complete defense to a
constitutional claim of malicious prosecution.” Betts v.
Shearman, 751 F.3d 78, 82 (2d Cir. 2014). “Probable
cause exists when ‘the facts and circumstances within
. . . the [police] officers’ knowledge and of which they
had reasonably trustworthy information are sufficient
in themselves to warrant a [person] of reasonable
caution in the belief that an offense has been or is
being committed by the person to be arrested.’” Kass
v. City of New York, 864 F.3d 200, 206 (2d Cir. 2017)
(quoting Marcavage v. City of New York, 689 F.3d 98,
109 (2d Cir. 2012)). To determine whether probable
cause exists, we must “examine the events leading up
to the arrest, and then decide whether these historical
facts, viewed from the standpoint of an objectively
reasonable police officer, amount to probable cause.”

5a
Marcavage, 689 F.3d at 109 (quoting Maryland v.
Pringle, 540 U.S. 366, 371 (2003)).
The record makes plain that the NYPD officers
had probable cause to arrest Plaintiffs for, among
other offenses, disorderly conduct under N.Y. Penal
Law § 240.20(6) and trespass under N.Y. Penal Law §
140.05, after Plaintiffs refused to leave the Park
following the dispersal order.
As an initial matter, we conclude that the
dispersal order was lawful because it was intended to
promote several legitimate governmental goals and
was therefore not arbitrary. See Kass, 864 F.3d at 212;
see also Crenshaw v. City of Mount Vernon, 372 F.
App’x 202, 206 (2d Cir. 2010). The City had a
legitimate interest in ensuring that the Park
remained accessible to all members of the public – not
just the protestors – and free of congestion. See Kass,
864 F.3d at 208; Int’l Action Ctr. v. City of New York,
587 F.3d 521, 527 (2d Cir. 2009); see also Clark v.
Cmty. For Creative Non-Violence, 468 U.S. 288, 298
(1984) (acknowledging that “the Government [need
not] tolerate” demonstrations that render parks
“partial[ly] inaccessib[le] to other members of the
public”). In addition, the City had a significant
interest in clearing the Park of unlawful structures,
Betancourt v. Bloomberg, 448 F.3d 547, 553–54 (2d
Cir. 2006); see also Gersbacher v. City of New York, No.
14-cv-7600 (GHW), 2017 WL 4402538, at *7–8
(S.D.N.Y. Oct. 2, 2017) (acknowledging that N.Y.C.
Admin. Code § 16-122(b), which prohibits the erection
of “shed[s], building[s] or other obstruction[s]” in
public spaces, applies to the Park), and mounting fire
hazards, Marcavage, 689 F.3d at 105 (“The
government interest in security is . . . significant.”).

6a
Plaintiffs’ refusal to comply with that lawful
dispersal order supplied probable cause to arrest them
for disorderly conduct. Even in the early morning, it
was entirely reasonable for the arresting officers to
assume that nearly 150 protestors refusing to leave a
public area in downtown Manhattan would risk
“public inconvenience.” Kass, 864 F.3d at 211; see also
People v. Weaver, 16 N.Y.3d 123, 128 (2011) (“We have
made clear that a defendant may be guilty of
disorderly conduct regardless of whether the action
results in public inconvenience, annoyance or alarm if
the conduct recklessly creates a risk of such public
disruption.”). In any event, the NYPD also had
probable cause to arrest Plaintiffs for trespassing once
they refused to leave the Park after being ordered to
do so. See Williams v. Town of Greenburgh, 535 F.3d
71, 79 (2d Cir. 2008); Berger v. Schmitt, 91 F. App’x
189, 190 (2d Cir. 2004) (“[U]nder New York law it is
unlawful to remain on the premises after being
personally given a lawful order to depart.”).
II. Retaliatory
Discrimination

Arrest

and

First

Amendment

“The existence of probable cause defeats a First
Amendment claim premised on the allegation that
defendants arrested a plaintiff based on a retaliatory
motive.” Caravalho, 732 F. App’x at 23 (citing
Fabrikant v. French, 691 F.3d 193, 215 (2d Cir. 2012)).
Though a narrow exception exists where there is
“objective evidence” that the police refrained from
arresting similarly situated people not engaged in
speech, Nieves v. Bartlett, 139 S. Ct. 1715, 1727 (2019),
no such facts were alleged here. As Plaintiffs admit,
the NYPD arrested “everyone who remained in the
[P]ark” following the dispersal order. Pls.’ Br. at 35.

7a
Plaintiffs fair no better in trying to classify the
City’s temporary closure of the Park as
discriminatory. In public fora, “the government may
apply content-neutral time, place, and manner
restrictions . . . [that] are ‘narrowly tailored to serve a
significant government interest’” so long as “‘ample
alternative channels of communication’ are available.”
Kass, 864 F.3d at 208 (quoting Zalaski v. City of
Bridgeport Police Dep’t, 613 F.3d 336, 341 (2d Cir.
2010)). Assuming that the Park is such a public forum,
the City’s temporary closure satisfied these
requirements.
First, the order was content neutral; just
because protestors were the only ones impacted does
not change that fact. See Madsen v. Women’s Health
Ctr., Inc., 512 U.S. 753, 762–63 (1994). Second, as
described above, the dispersal order was motivated by
significant City interests, including the need to
address mounting fire hazards and reduce congestion.
Third, the dispersal order was appropriately tailored
to achieve those interests and the City was not
required to use the absolute “least restrictive or least
intrusive means” possible. Caravalho, 732 F. App’x at
23 (quoting Marcavage, 689 F.3d at 106). Lastly, the
dispersal order left open ample alternative channels
for speech: the protestors were free to exercise their
rights in any other public area within the vicinity of
the Park (or even to return to the Park after it was
cleaned).
III. Eviction from the Park Without Due Process
To assert a due process claim, a plaintiff must
show that he has been “deprived of a protected
interest in ‘property’ or ‘liberty.’” Am. Mfrs. Mut. Ins.
Co. v. Sullivan, 526 U.S. 40, 59 (1999) (quoting U.S.

8a
Const. amend. XIV § 1). Such an interest must be
“individual in nature.” Harrington v. County of
Suffolk, 607 F.3d 31, 34 (2d Cir. 2010). “Thus, where
the ‘intended beneficiaries’ of a particular law ‘are
entirely generalized,’ . . . the law does not create a
property interest protected by the Due Process
Clause.” Id. at 34–35.
Here, Plaintiffs claim that they had a protected
interest to remain in the Park because of an
“easement” created by a City zoning resolution, Pls.’
Reply at 11, and because the Mayor “publicly
announced that so long as the camping demonstrators
continued to obey the law they must and would be
allowed to stay in the [P]ark,” App’x 89. Neither
source created an individualized right to remain in the
Park, let alone to do so while flouting City rules. The
City’s zoning laws granting access to the Park “run[]
to the public generally;” “[s]uch universal benefits are
not property interests protected by the Due Process
Clause.” Harrington, 607 F.3d at 35 (internal
quotation marks omitted). And setting aside whether
the Mayor’s general statement could even create an
individualized entitlement, Plaintiffs ignore the
Mayor’s qualification that they could remain in the
Park only so long as they obeyed the law. Since
Plaintiffs refused to comply with a lawful dispersal
order – necessitated in part by the protestors’ own
habitual violation of City rules – the Mayor’s
statement provides them with no basis for asserting a
property interest in remaining permanently at the
Park.
Conclusion
We have reviewed the remainder of Plaintiffs’
arguments and find them to be without merit.

9a
Accordingly, we AFFIRM the judgment of the district
court.

10a
Appendix B
Order of
The United States District Court for
The Southern District of New York
Dismissing Municipal Defendant
City of New York
UNITED STATES
DISTRICT COURT
SOUTHERN DISTRICT
OF NEW YORK
------------------------------------x
CHARLES MEYERS,
:
ET AL.,
:
Plaintiffs, :
-against:
THE CITY OF NEW
:
YORK, ET AL.,
:
Defendants. :
-----------------------------------x

1:14-cv-09142 (ALC)
OPINION &
ORDER

ANDREW L. CARTER, JR., United States District
Judge:
Plaintiffs Charles Meyers, John Baker, Justin
Strekal, and Miles Walsh, who were Occupy Wall
Street protestors, bring this putative class action
pursuant to 42 U.S.C. § 1983 against Defendant City
of New York for allegedly evicting Plaintiffs from
Zuccotti Park and arresting them in violation of their
First, Fourth, and Fourteenth Amendment rights.
Am. Compl., ECF No. 48. Parties now cross move for
judgment on the pleadings under Fed. R. Civ. P. 12(c).
After considering parties' motions, Defendant's
Motion for Judgment on the Pleadings is GRANTED;

11a
Plaintiffs' motion is DENIED as moot. ECF Nos. 109,
106.
BACKGROUND
I. Statement of Facts
As the Court has described the facts in greater
detail in its earlier opinions, only a brief overview is
provided here. Between September and October of
2011, Plaintiffs began residing in Zuccotti Park, a
privately-owned public space in New York City's
financial district, as part of the Occupy Wall Street
movement. Id. at ¶¶155-181. Zuccotti Park was
developed as a result of a bargain between U.S. Steel
and the City whereby the City provided U.S. Steel a
Special Permit to build an office tower without regard
to height and setback regulations in exchange for U.S.
Steel developing and maintaining a permanent open
park. Id. at ¶¶48-50. On October 10, 2011, the Wall
Street Journal published an article regarding the
protestors' right to occupy Zuccotti Park, which
included then-Mayor Michael Bloomberg's position on
the issue. Id. at Ex. G. Mayor Bloomberg stated, inter
alia, that '"as long as [the protestors] obey the laws,
we'll allow them to [express themselves] ... If they
break the laws, then, we're going to do what we're
supposed to do: enforce the laws."' Id.
On or about 1:00 a.m. of November 15, 2011,
NYPD officers, via bullhorn, ordered all individuals in
the park to leave and to take their personal
possessions, or to face arrest. Id. at ¶¶151, 197. The
NYPD's actions were allegedly motivated by the
unsafe conditions that had developed in Zuccotti Park
due to protestors prolonged occupation, including fire
hazards and criminal activity. Def.'s Mem. Supp. Mot.

12a
J. Pleadings 3, ECF No. 111. Additionally, the owners
of Zuccotti Park at the time of the occupation,
Brookfield Properties, requested the City's assistance
in temporarily relocating the occupants of Zuccotti
Park on the understanding that Zuccotti Park would
be reopened to the public once safe conditions were
restored. Id. at 3-4.
After ordering the occupants of Zuccotti Park to
disperse, NYPD officers and other City workers
allegedly destroyed tents "using dangerous edged
tools" and "seized all of the property [Plaintiffs] had
on their persons, including their household property."
Am. Compl. ¶¶152-154, ECF No. 48. Approximately
148 of the 350 protestors, including Plaintiffs, chose
not to comply with the NYPD's dispersal order,
choosing instead to lock their arms together while
sitting on the ground and refusing to leave. Def.'s
Mem. Supp. Mot. J. Pleadings 5-6, ECF No. 111. In
response, NYPD officers arrested Plaintiffs and
charged them with trespass, obstruction of
governmental administration, and disorderly conduct.
Def.'s Mem. Supp. Mot. J. Pleadings 6, ECF No. 111.
II. Relevant Procedural History
Defendants had previously moved to dismiss
the complaint for failure to state a claim, which the
Court granted in part and denied in part. ECF No. 47.
After remand by the Second Circuit regarding the
qualified immunity of the individual Defendants
named in the case, the Court granted Defendants'
Motion to Dismiss as to the individual Defendants
leaving the City of New York as the sole Defendant.
ECF Nos. 68, 78. Defendant City of New York
answered the Amended Complaint and, in its answer,
asserted the affirmative defense of probable cause.

13a
ECF No. 93. Plaintiff has now moved for judgment on
the pleadings per Fed. R. Civ. P. 12(c) on Defendant's
affirmative defense of probable cause, which Plaintiff
argues Defendant cannot properly assert as a matter
of law to Plaintiffs' Fourteenth Amendment claims.
ECF No. 106. Conversely, Defendant has cross-moved
for judgment on the pleadings for Plaintiffs failure to
allege municipal liability, which Defendant argues
warrants dismissal of the case as a matter of law. ECF
Nos. 109.
STANDARD OF REVIEW
"When deciding Rule 12(c) motions for
judgment on the pleadings, a court employs the
standard that applies to motions to dismiss a
complaint under Rule 12(b)(6). Thus, a court must
accept the allegations contained in the complaint as
true and draw all reasonable inferences in favor of the
non-movant." Walker v. Sankhi, 494 F. App'x 140, 142
(2d Cir. 2012) (citing L-7 Designs, Inc. v. Old Navy,
LLC, 647 F.3d 419,429 (2d Cir. 2011)). This tenet,
however, is "'inapplicable to legal conclusions."'
Martine's Serv. Ctr., Inc. v. Town of Wallkill, 554 F.
App'x 32, 34 (2d Cir. 2014) (citing Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009)). Simply put, to survive a
Rule 12(c) motion, "[t]he complaint must plead 'factual
content that allows the court to draw the reasonable
inference that the defendant is liable for the
misconduct alleged.'" Id. Finally, "[o]n a 12(c) motion,
the court considers the complaint, the answer, any
written documents attached to them, and any matter
of which the court can take judicial notice for the
factual background of the case." L-7 Designs, Inc., 647
F.3d at 422.

14a
Here, the Court need only decide Defendant's
motion because a finding that Plaintiffs' Complaint
does not provide factual content from which the Court
can infer that Defendant, a municipality, is liable,
would warrant a wholesale dismissal of the
Complaint. The foregoing analysis will show that
Defendants are entitled to judgment on the pleadings
because Plaintiffs have not plead a constitutional
violation, which in tum renders Plaintiffs' Motion for
Judgment on the Pleadings as to the affirmative
defense of probable cause moot.
ANALYSIS
Defendant's primary contention is that
Plaintiffs have failed to meet the standard under the
law to allege municipal liability; namely, Plaintiffs
have not adequately pleaded either that Defendant
had a formal policy that led to a constitutional
violation, or that Defendant's failure to train officers
led to a constitutional violation. Def.' s Mem. Supp.
Mot. J. Pleadings 9-13, ECF No. 111. Defendant
further asserts that regardless of whether the Court
finds that Plaintiffs have not plead municipal liability,
Plaintiffs have failed to plead a constitutional
violation, which absolves the City of any liability. Id.
at 13-14.
In Monell v. Dep 't of Soc. Servs. of City of New
York, the Supreme Court held that a municipality can
be liable under § 1983 where the "action that is alleged
to be unconstitutional implements or executes a policy
statement, ordinance, regulation, or decision officially
adopted and promulgated by that body's officers." 436
U.S. 658, 690 (1978). Thus, to successfully lodge a
claim against a municipality for the actions of a public
official, a plaintiff must prove: "(1) actions taken

15a
under color of law; (2) deprivation of a constitutional
or statutory right; (3) 4 causation; (4) damages; and
(5) that an official policy of the municipality caused
the constitutional injury." Roe v. City of Waterbury,
542 F.3d 31, 36 (2d Cir. 2008).
In the absence of an official policy, Monell
liability can also attach based on a single decision by
a municipal policymaker so long as a plaintiff can
show ( 1) "that the official had final policymaking
power;" (2) that the challenged action was within the
"official's area of policymaking authority;" and (3) that
the policymaker had "final authority," meaning that
her "decisions, at the time they are made, may fairly
be said to represent official policy." Id. at 37.
The Supreme Court has been clear, however,
that a municipality "cannot be held liable under §
1983 on a respondeat superior theory." Monell, 436
U.S. at 659. As "governmental bodies can act only
through natural persons ... these governments should
be held responsible when, and only when, their official
policies cause their employees to violate another
person's constitutional rights." City of St. Louis v.
Praprotnik, 485 U.S. 112, 122 (1988). In other words,
"a plaintiff must demonstrate that, through its
deliberate conduct, the municipality was the moving
force behind the alleged injury." Roe, 542 F.3d at 37.
Finally, even if there was a municipal policy or
a policymaker whose decision led to a plaintiffs
injuries, such injury provides no basis for liability
unless it amounts to a constitutional violation. City of
Los Angeles v. Heller, 475 U.S. 796, 799, 106 S. Ct.
1571, 1573, 89 L. Ed. 2d 806 (1986) ("If a person has
suffered no constitutional injury at the hands of the
individual police officer, the fact that the

16a
departmental regulations might have authorized the
use of constitutionally excessive force is quite beside
the point."); Matican v. City of New York, 524 F.3d
151, 154 (2d Cir. 2008) (holding that if an officer's
actions did not violate the plaintiffs constitutional
rights, the "City cannot be liable to [the plaintiff]
under § 1983, regardless of whether the officers acted
pursuant to a municipal policy or custom."); Fappiano
v. City of New York, 640 F. App'x 115, 121 (2d Cir.
2016) ("In the absence of an underlying constitutional
violation by a city employee there is no municipal
liability under Monell."); Burgess v. DeJoseph, 725 F.
App'x 36, 40 (2d Cir. 2018) (affirming dismissal of the
plaintiffs claims against a municipality because there
"no underlying constitutional violation .... ").
Accordingly, the Court will first consider
whether Plaintiff has sufficiently pleaded that an
official policy or the decision of a policymaker
motivated the actions of the NYPD in this case. Next,
the Court will determine if Defendant's officers'
actions rise to the level of a constitutional violation.
Based on an analysis of parties' briefs and the
underlying supporting documents of which the Court
takes judicial notice, the Court holds Plaintiffs' Monell
claim fails because there is no constitutional violation
alleged.
I. Policymaker Decision
Plaintiffs assert in their opposition papers that
they have sufficiently plead municipal liability under
the policymaker prong. 1 1Pls.' Mem. Opp. Def.'s Mot.

1Plaintiffs

do not argue in their opposition papers, nor can they,
that there is any official custom or policy that provides the basis

17a
J. Pleadings 16-17, ECF No. 112. Specifically,
Plaintiffs point to their pleadings that Mayor
Bloomberg, NYPD Commissioner Raymond Kelly, and
NYPD Chief of Department Joseph Esposito approved
the allegedly unconstitutional acts at issue in this
case. Id.; see also Compl. ¶¶17-19, 199,216, ECF No.
48. Plaintiffs also argue that in deciding Defendant's
Motion to Dismiss, ECF No. 47, the Court already held
that the facts in the Complaint were "adequate to
establish municipal liability." Pls.' Mem. Opp. Def.'s
Mot. J. Pleadings 16-17, ECF No. 112. See Meyers v.
City of New York, No. 1 :14-CV-9142 ALC, 2015 WL
6503825, at *17 (S.D.N.Y. Oct. 27, 2015), vacated on
other grounds, 675 F. App'x 93 (2d Cir. 2017)
("Because Meyers alleges that the former mayor
devised and ordered the OWS demonstrators'
allegedly unconstitutional arrests, and because the
for Monell liability here. Indeed, the Complaint does not identify
any official policy or custom; it only asserts in conclusory fashion
that the alleged constitutional violations resulted from city policy
that mandated false arrests and malicious prosecutions of
persons engaged in First Amendment activity. See Compl.
¶¶211-216, ECF No. 48. Courts have routinely held such general
assertions to be insufficient to survive a motion for judgment on
the pleadings. See, e.g., Cuevas v. City of New York, No. 07 CIV.
4169 (LAP), 2009 WL 4773033, at *4 (S.D.N.Y. Dec. 7, 2009)
("Baldly asserting that Plaintiff's injuries are the result of the
City's policies does not show this Court what the policy is or how
that policy subjected Plaintiff to suffer the denial of a
constitutional right."); Brodeur v. City of New York, No. 99 CIV.
651 (WHP), 2002 WL 424688, at *6 (S.D.N.Y. Mar. 18, 2002)
("The complaint flatly asserts that the City had a policy of
stifling, discouraging and suppressing critics of the former
Mayor and his administration by arresting them. However,
absent from the complaint are specific factual allegations
sufficient to establish that a municipal policy or custom caused
Brodeur's alleged injury.").

18a
mayor may be treated as a policymaker without proof
of his specific powers and responsibilities, the Monell
claim against the City of New York survives.").
After taking judicial notice of all the documents
in this case available to the Court, the Court
maintains its previous holding that Plaintiffs' have
sufficiently alleged that a policymaker with final
decision-making authority made a decision that
represented official policy. The Affirmation of Deputy
Mayor Cas Holloway confirms that former Mayor
Bloomberg made the decision to remove Plaintiffs
from the park, noting that the Mayor issued a
statement regarding the removal a few hours after it
had taken place. Decl. of Brachah Goykadosh
(hereinafter "Goykadosh Decl.") Ex. C. ¶4, ECF No.
110-3. In his statement, which the Court also takes
judicial notice of, Mayor Blomberg asserts in no
uncertain terms that the "final decision to act was
[his]." Statement Of Mayor Michael R. Bloomberg On
Clearing And Re-opening Of Zuccotti Park,
https://wwwl.nyc.gov/office-of-the-mayor/news/41011/statement-mayormichael-bloomberg-clearing-reopening-zuccotti-park (last visited January 31, 2019).
Given that Mayor Bloomberg did in fact devise and
order the removal of Plaintiffs, and given that he had
final decision-making authority, his decision can be
treated as official policy for the purposes of Monell
liability. The City, however, is ultimately not liable
under Monell as Plaintiffs have failed to allege a
constitutional violation.
II. Constitutional Violation
a. First and Fourth Amendment Claims

19a
Defendant is entitled to judgment on the
pleadings as to Plaintiffs' First and Fourth
Amendment claims of false arrest, malicious
prosecution, and First Amendment retaliation
because there was probable cause for Plaintiffs
arrests. Defendant is also entitled to judgment on
Plaintiffs' First Amendment discrimination claim
because Defendant's decision to temporarily close that
park was a constitutional time, place, and manner
restriction.
"The First Amendment, applicable to the States
through the Fourteenth Amendment, provides that
'Congress shall make no law ... abridging the freedom
of speech."' Virginia v. Black, 538 U.S. 343, 358 (2003)
(quoting U.S. Const. amend. 1). Moreover, state actors
may not take actions in retaliation for individuals
exercising their First Amendment rights, i.e., take
actions to harm individuals because they exercised
their First Amendment rights. Smith v. Campbell, 782
F.3d 93, 100 (2d Cir. 2015); Hartman v. Moore, 547
U.S. 250,256 (2006) ("[T]he First Amendment
prohibits government officials from subjecting an
individual to retaliatory actions, including criminal
prosecutions, for speaking out.") (citations omitted).
On the other hand, "[u]nder the Fourth
Amendment, made applicable to the States by the
Fourteenth Amendment, the people are 'to be secure
in their persons ... against unreasonable searches and
seizures .... " Maryland v. Pringle, 540 U.S. 366,369
(2003) (quoting U.S. Const. amend. IV). This includes
protection from false arrest and malicious
prosecution. See Weyant v. Okst, 101 F.3d 845,852 (2d
Cir. 1996) (the Fourth Amendment protects the "right
of an individual to be free from unreasonable seizures,

20a
including arrest without probable cause .... "); Murphy
v. Lynn, 118 F.3d 938, 944 (2d Cir. 1997) (the Fourth
Amendment provides the basis for a § 1983 claim that
a "criminal prosecution was initiated against [an
individual] without probable cause .... "). In this case,
Plaintiffs claim that they were lawfully occupying
Zuccotti Park, hence their arrests and prosecution for
refusing to vacate the park in response to an order by
the NYPD allegedly amounted to false arrest,
malicious prosecution, and First Amendment
retaliation and discrimination. Compl. 53-59, ECF No.
48. Defendant argues their actions were supported by
probable cause.
It is well established that probable cause is a
complete defense to both First Amendment retaliation
and Fourth Amendment false arrest and malicious
prosecution claims. See, e.g., Caravalho v. City of New
York, 732 F. App'x 18, 23 (2d Cir. 2018) (dismissing
false arrest and First Amendment retaliation claims
against the City of New York and individual officers
where the officers had probable cause to arrest six
Occupy Wall Street demonstrators who refused to
comply with a dispersal order); Fabrikant v. French,
691 F.3d 193,215 (2d Cir. 2012) (holding that the
plaintiff's
"claims
of
malicious
prosecution,
unreasonable search and seizure, and First
Amendment retaliation fail because defendants had
probable cause .... "). The Court holds that Defendant's
actions were supported by probable cause thereby
defeating Plaintiffs' claims of false arrest, malicious
prosecution, and First Amendment retaliation. The
Court will consider Plaintiff's First Amendment
discrimination claim separately.

21a
2

1. False Arrest

To prevail on a claim of false arrest under New
York state law a plaintiff must allege that "(1) the
defendant intended to confine him [or her], (2) the
plaintiff was conscious of the confinement, (3) the
plaintiff did not consent to the confinement and ( 4)
the confinement was not otherwise privileged."
Sinagra v. City of New York, 127 A.D.3d 729, 730 (N.Y.
App. Div. 2015); accord Jocks v. Tavernier, 316 F.3d
128, 134 (2d Cir. 2003). As already noted, probable
cause is a complete defense to false arrest. In this
In its previous opinion, the Court found that the officers in this
case entitled to qualified immunity because the officers had
arguable probable cause for the arrests. Meyers v. City of New
York, No. 14-CV-9142 (ALC), 2017 WL 4803922, at *1 (S.D.N.Y.
Oct. 20, 2017), appeal dismissed (Jan. 10, 2018). The Court
reached this conclusion because Plaintiffs' belief that they need
not comply with the officers' dispersal order rested on a legal
theory that was not clearly established at the time of arrest, and
hence, it could not be said that "any reasonable officer would
understand that an arrest under the circumstances would be
unlawful." Id. at *2. Though the Court already concluded there
was no constitutional violation in this case due to existence of
arguable probable cause, the Second Circuit has held that "the
entitlement of the individual municipal actors to qualified
immunity because at the time of their actions there was no clear
law or precedent warning them that their conduct would violate
federal law is also irrelevant to the liability of the municipality
.... Municipalities are held liable if they adopt customs or policies
that violate federal law and result in tortious violation of a
plaintiff's rights, regardless of whether it was clear at the time
of the adoption of the policy or at the time of the tortious conduct
that such conduct would violate the plaintiff's rights." Askins v.
Doe No. I, 727 F.3d 248,254 (2d Cir. 2013). In light of the holding
in Askins, the Court must now analyze whether the facts
warrant a finding of probable cause, which would absolve the
City of liability under Monell for Plaintiffs' false arrest,
malicious prosecution, and First Amendment retaliation claim.
2

22a
context, "[p]robable cause exists where the facts and
circumstances within ... the officers' knowledge and of
which they had reasonably trustworthy information
are sufficient in themselves to warrant a man of
reasonable caution in the belief that an offense has
been or is being committed by the person to be
arrested." Marcavage v. City of New York, 689 F.3d 98,
109-10 (2d Cir. 2012) (citing Dunaway v. New York,
442 U.S. 200,208 n.9 (1979)). Practically speaking,
this requires courts to "look at the facts as the officers
knew them in light of the specific elements of the
offense [while] considering the totality of the
circumstances and the perspective of a reasonable
police officer in light of his training and experience."
Caravalho, 732 F. App'x at 22 (citing Gonzalez v. City
of Schenectady, 728 F.3d 149, 155 (2d Cir. 2013))
(citing United States v. Delossantos, 536 F.3d 155, 159
(2d Cir. 2008)).
Defendant arrested Plaintiffs for disorderly
conduct, trespass, and obstruction of governmental
administration when Plaintiffs refused to vacate
Zuccotti Park in response to Defendant's dispersal
order. Defendant argues that it had probable cause for
arresting Plaintiffs for each of these offenses, Plaintiff
asserts otherwise. The Court concurs with Defendant
and considers each offense in tum below.
1. Disorderly Conduct
The Court first holds that Defendant had
probable cause to arrest Plaintiffs for disorderly
conduct. Disorderly conduct "consists of the following
elements: the individual (1) congregated with other
persons in a public place; (2) was given a lawful order
of the police to disperse; (3) refused to comply with
that order; and (4) acted with intent to cause or

23a
recklessly created a risk of public inconvenience,
annoyance or alarm." Kass v. City of New York, 864
F.3d 200,211 (2d Cir.), cert. denied sub nom. Kass v.
City of New York, N.Y., 138 S. Ct. 487 (2017); New
York Penal Law§ 240.20(6). Plaintiffs dispute that the
third and fourth elements were present in the instant
case. The Court disagrees-even drawing all reasonable
inferences in favor of Plaintiffs, the facts and
circumstances suggest that a Defendant's officers had
sufficient information to warrant a reasonable belief
that Plaintiffs were violating the disorderly conduct
statute.
a. Lawful Dispersal Order
Under N.Y. Penal Law§ 240.20(6), an officer's
dispersal order is unlawful if it "was purely arbitrary
and not calculated in any way to promote the public
order." Crenshaw v. City of Mount Vernon, 372 F.
App'x 202,206 (2d Cir. 2010); Kass, 864 F.3d at 212
(accord). The facts here point to a dispersal order that
was calculated to promote the public order and was
not purely arbitrary. Defendant asserts that the
dispersal order was issued because (1) conditions in
the Park constituted a fire hazard; (2) there were
increasing rates of criminal activity in the park; and
(3) Brookfield Properties requested that the City
temporarily remove occupants to redress these unsafe
conditions. Def.'s Mem. Supp. Mot. J. Pleadings 2-4,
ECF No. 111. The Court finds that any of these three
circumstances would justify Defendant's dispersal
order.
The City first notes that there were combustible
items, smoking, and obstructions that created a fire
hazard in Zuccotti Park. Goykadosh Decl., Ex. C. ¶78, ECF No. 110-3. This finding was made, in part, by

24a
visual inspections conducted by Deputy Mayor
Holloway the day prior to the removal of occupants as
well as by inspections by the Fire Department
("FDNY"), who issued a fire code violation order to
Brookfield Properties due to these conditions. Id.
Plaintiffs argue, however, that the Fire Department
was previously able to remove fire hazards without
requiring dispersal of the demonstrators, and that the
FDNY violation orders were sham ex post facto orders
created by the City to cover their unlawful acts,
vitiating the argument for probable cause. Pls.' Opp.
Def. Mot. J. Pleadings 12, 14-15, ECF No. 112.
Specifically, Plaintiffs note that the violation orders
were dated November 15, 2011, the same day the park
was cleared and cleaned at 1 :00 a.m., and despite this,
state that the park was filed with dangerous
structures and personal property. Id. at 14-15.
There is undoubtedly ambiguity regarding the
timing of the FDNY violation order and the City did
not provide an explanation in response to Plaintiffs'
argument. Yet this alone does not mean the City's
conclusion that there was a fire hazard necessitating
the removal occupants was arbitrary and not in
furtherance of promoting public order. For example,
Deputy Mayor Holloway's visual inspection, which
confirmed there were combustible items, smoking,
and other obstructions, provided one basis for the City
to conclude that fire hazards existed in Zuccotti Park.
Goykadosh Decl., Ex. C. ¶7, ECF No. 110-3.
Additionally, FDNY had previously removed gasoline
and diesel generators because there were safety
concerns arising from their "proximity to a large
quantity of flammable materials." Id. at ¶20. This
provides further circumstantial evidence supporting
Holloway and the City's conclusion that there were in

25a
fact an abundance of flammable materials in Zuccotti
Park. Though FDNY took steps to redress the risk a
few weeks prior to the removal of the occupants, this
does not mean the fire hazard was sufficiently
minimized or that the risk of fires did not increase in
the weeks following the initial steps taken by FDNY.
Regardless of how strong the City's basis was
for concluding that there was a fire hazard, the City
reasonably concluded that the increase in criminal
activity in Zuccotti Park warranted a dispersal order.
According to Holloway, "what was before a park with
little to no crime [saw] approximately 73 misdemeanor
and felony complaints and approximately 50 arrests
since the movement began, and people who [had] a
known history of violent interactions with the police
[had] been observed." Id. at ¶18. Holloway also noted
that "[m]akeshift items that can be used as weapons,
such as cardboard tubes with metal pipes inside, had
been observed ... and, after the march on the Brooklyn
Bridge, knives, mace and hypodermic needles were
observed discarded onto the roadway." Id. at ¶17.
Plaintiffs provide no response regarding why the
increased rates of crime in Zuccotti Park coupled with
the potentially dangerous items in the possession of
some protestors did not provide a valid basis for a
dispersal order. Given the appreciable risk to public
safety, the City's dispersal order was calculated to
uphold the public order, meaning the order was not
arbitrary.
Finally, the City was acting, in part, at the
behest of Brookfield Properties, which provides
another basis for its dispersal order. On November 14,
2011, Brookfield expressed concern for "public safety
and the fact that it [could not] operate the Park as it

26a
[was] required under its special permit" and requested
assistance in removing occupants and their
belongings so that Zuccotti Park could be "restored to
its intended use and reopened to all." Id. at ¶23. It is
undisputed that Brookfield is required to maintain
Zuccotti Park as a public space open to all at all times,
and Brookfield believed that it was unable to meet its
obligations under the Special Permit while protestors
continued to occupy Zuccotti Park. Plaintiffs instead
assert that Brookfield did not take any legal steps
prior to November 15, 2011 to meet its obligations and
did not obtain permission from the City Planning
Commission ("CPC") for a nighttime closure as
Plaintiffs claim Brookfield was required to under
applicable zoning regulations. Pls. Opp. M. J.
Pleadings 12, ECF No. 112; N.Y.C. Zoning Resolution§
37-727 ("All public plazas shall be accessible to the
public at all times, except where the City Planning
Commission has authorized a nighttime closing.").
Plaintiffs arguments lack merit.
The Holloway Affirmation clarifies that in
"mid-October, at the request of Brookfield Properties,
the City worked with Brookfield to facilitate
Brookfield's ability to remove demonstrators and their
belonging on a temporary and section-by-section
basis. Demonstrators were given approximately 24hours advance notice of Brookfield's intent to conduct
the cleaning effort." Goykadosh Decl., Ex. C. ¶14, ECF
No. 110-3. In other words, Brookfield did attempt to
take legal steps to meet its obligations under the
Special Permit; but, in response to the notice that this
cleaning would take place, 2000 protestors overflowed
Zuccotti Park and made it "difficult and dangerous for
the Police Department to attempt to remove people
under those conditions." Id. at ¶15.

27a
Next, Plaintiffs argument that only the City Planning
Commission, not Brookfield, could have issued a
nighttime closure is an incorrect interpretation of the
zoning regulations. Under § 37-623 of the N.Y.C.
Zoning Regulations, "[t]he City Planning Commission
may, upon application, authorize the closing during
certain hours of an existing plaza." The regulation
categorizes "nighttime closings" as related to "hours of
access," which leads the Court to conclude that
permission is needed where a property owner seeks to
limit the hours the public can access a public plaza
generally. This regulation does not speak to
Brookfield's prerogative to request police assistance to
remove persons who hamper Brookfield's ability to
maintain a public space or those who create unsafe
conditions
for
others.
Moreover,
Plaintiffs'
interpretation of the regulation is nonsensical. Under
Plaintiffs' interpretation, Brookfield could avoid
violating the regulation by closing the park during the
day to remove occupants. Considering that Brookfield
was concerned about the conditions at Zuccotti Park,
which was supported by the City's own investigation
of the premises, the decision to issue a dispersal order
was lawful because it was calculated to promote the
public order and thus, not arbitrary.
b. Public Inconvenience
Plaintiffs assert that the fourth element of
disorderly conduct, that Plaintiffs acted with intent to
cause or recklessly create a risk of public
inconvenience cannot be met because there were no
members of public present during the arrests to
inconvenience. Courts have interpreted the fourth
element of disorderly conduct to require proof of that
the conduct at issue had (1) public ramifications, and

28a
(2) was intended to disrupt. Caravalho, v. City of New
York, No. 13CV4174PKCMHD, 2016 WL 1274575, at
*7 (S.D.N.Y. Mar. 31, 2016) (citing Provost v. City of
Newburgh, 262 F.3d 146, 157 (2d Cir. 2001)).
To assess whether conduct has public
ramifications, courts consider "the time and place of
the episode under scrutiny; the nature and character
of the conduct; the number of other people in the
vicinity; whether they are drawn to the disturbance
and, if so, the nature and number of those attracted;
and any other relevant circumstances." People v.
Weaver, 16 N.Y.3d 123, 128 (2011). The New York
Court of Appeals has clarified that "there is no per se
requirement that members of the public must be
involved or react to the incident. Rather, the attention
generated by a defendant's activities, or the lack
thereof, is a relevant factor to be considered .... " Id.
As to intent, the statute does not require that the
conduct at issue result "in public inconvenience,
annoyance or alarm if the conduct recklessly creates a
risk of such public disruption." Id. (citing People v.
Todaro, 26 N.Y.2d 325, 329 (1970)); Caravalho, 2016
WL 1274575, at *7 (accord). Plaintiffs primarily
contest
whether
their
actions
had
public
ramifications.
The Court holds that Plaintiffs' conduct both
had public ramification and was intended to disrupt.
Plaintiffs' assertion that there is no evidence on the
record that members of the public were present during
the arrest is of no moment. At bottom, Plaintiffs
refused to follow a dispersal order in a presumptively
public space. Even if Plaintiffs are correct that no
members of the public were present, it was not
unreasonable for police officers to believe there could

29a
be bystanders present in the area even at 1 :00 a.m.
given that Zuccotti Park was widely-publicized as the
epicenter of a significant political demonstration. See
generally Zalaski v. City of Hartford, 723 F.3d 382,
393 (2d Cir. 2013) ("[B]ecause the practical restraints
on police in the field are greater with respect to
ascertaining intent ... , the latitude accorded to officers
considering the probable cause issue in the context of
mens rea crimes must be correspondingly great.")
(citation omitted).
Furthermore, it is not clear why the Plaintiffs
do not consider the 202 protestors who followed the
dispersal order, who did not seek to cause unrest, who
did not risk arrest, and who were not arrested to be
members of the public inconvenienced by Plaintiffs
actions. As the facts strongly suggest that Plaintiffs
conduct had public ramifications and was intended to
disrupt, even if it failed to do so, the final element of
disorderly conduct was present. Accordingly, the City
had probable cause to arrest Plaintiffs for disorderly
conduct.
2. Trespass
The Court next holds that Defendant had
probable cause to arrest Plaintiffs for trespass. To
support a prima facie case of criminal trespass in a
public place, three elements must be met: "(1) that a
lawful order excluding the defendant from the
premises was issued, (2) that the order was
communicated to the defendant by a person with
authority to make the order, and (3) that the
defendant defied that order." Carpenter v. City of New
York, 984 F. Supp. 2d 255,265 (S.D.N.Y. 2013) (citing
People v. Munroe, 18 Misc. 3d 9, 11, (App. Term 2007));
N.Y. Penal Law § 140.05. The Court has already

30a
concluded that the dispersal order was lawful;
Plaintiffs remaining arguments are that Plaintiffs
were not sufficiently warned regarding what
constituted trespassing and that the officers did not
have the authority to issue the dispersal order so there
was no probable cause to arrest for trespass. Pls.' Opp.
Def. Mot. J. Pleadings. 19-21, ECF No. 112.
Taking the issue of the authority of the police
officers first, there is no question that Brookfield, the
property owner, granted authority to the NYPD to
carry out the removal of protestors. Plaintiffs cite
People v. Dailey to argue that a property owner, not a
police officer, has the authority to order the removal
of persons who had a license to be on the property
owner's land.3 69 Misc. 2d 691, 694 (Co. Ct. 1972).
Dailey, however, also notes that police officers would
be authorized to remove trespassers where they "have
specific written authority to speak for an absent
owner." Id. This was the case here. According to
Holloway, Brookfield in a letter dated November 14,
2011 requested "that the City provide necessary
assistance in having the tents and other belongings
stored at the Park removed, and in having occupants
temporarily relocated from the Park on the
understanding that after this has occurred the Park
will be restored to its intended use and reopened to
all." Goykadosh Decl., Ex. C. ¶23, ECF No. 110-3.
On notice, Plaintiffs' argument misses the
mark. Plaintiffs claim that they did not have fair
3Dailey

appears to be discussing New York law in the context of
private rather than public property. The Court, however, need
not delve deeper into this analysis, as the City's officers had clear
permission to carry out the removal of occupants in this case.

31a
warning that their conduct had become criminal and
warranted their arrests. Pls.' Opp. Def. Mot. J.
Pleadings 19-20, ECF No. 112. First, there were rules
that Brookfield promulgated in September 2011, two
months before the removal took place, which gave
occupants notice of the types of conduct that
Brookfield considered problematic. See People v.
Nunez, 36 Misc. 3d 172, 180 (Crim. Ct. 2012) ("These
rules included a prohibition on (i) camping and the
erection of tents and other structures; (ii) lying down
on the ground or lying down on benches, sitting areas
or walkways in a manner that unreasonably interferes
with the use of benches, sitting areas or walkways by
others; (iii) the placement of tarps or sleeping bags or
other coverings on the property; and (iv) the storage
or placement of personal property on the ground,
benches, sitting areas or walkways in a manner that
unreasonably interferes with the use of such areas by
others."). But, more importantly, Plaintiffs were not
arrested for violating the rules, but for failing to
comply with a valid dispersal order. That is the root of
the trespass offense at issue in this case, and that is
what provided the officers with probable cause.
To the extent that Plaintiffs claim that not
everyone heard the order, this does not hinder a
finding of probable cause. The Second Circuit has held
that"[o]nce a police officer has a reasonable basis for
believing there is probable cause, he is not required to
explore and eliminate every theoretically plausible
claim of innocence before making an arrest." Panetta
v. Crowley, 460 F.3d 388, 396 (2d Cir. 2006) (citation
omitted). After the dispersal order was issued via
bullhorn, and officers observed that Plaintiffs and
others chose not to leave and instead began locking
their arms together to protest the dispersal order, the

32a
officers had a reasonable basis for believing there was
probable cause to arrest Plaintiffs. Even if some
Plaintiffs had not heard the order, the officers could
have reasonably believed from Plaintiffs' decision to
lock arms that they heard the order and were refusing
to follow it. Considering these facts, the Court finds
that there was probable cause for arresting Plaintiffs
for trespass.
3. Obstructing Governmental Administration
The Court also holds that there was probable
cause for arresting Plaintiffs for obstructing
governmental administration. A person obstructs
governmental
administration
where
she
"intentionally obstructs, impairs or perverts the
administration of law or other governmental function
or prevents or attempts to prevent a public servant
from performing an official function, by means of
intimidation, physical force or interference, or by
means of any independently unlawful act .... " N.Y.
Penal Law§ 195.05. "An individual, therefore, may be
convicted under this statute when (1) a public servant
is performing an official function; (2) the individual
prevents or attempts to prevent the performance of
that function by interfering with it; and (3) the
individual does so intentionally." Kass, 864 F.3d at
207.
Defendant claims that Plaintiffs' choice to erect
tents and other structures in Zuccotti park was in
contravention of N.Y.C. Admin. Code § 16-122(b),
which makes it unlawful for any person "to erect or
cause to be erected thereon any shed, building or other
obstruction" in a public place. As Plaintiffs refused to
allow Defendant to bring Zuccotti Park in line with the
administrative code, Defendant argues that its

33a
officers had probable cause to arrest Plaintiffs for
obstructing governmental administration. Defendant
relies on Betancourt v. Bloomberg, 448 F.3d 547, 554
(2d Cir. 2006), where the Second Circuit found that
police officers had probable cause to arrest the
plaintiff after they "observed him in a cardboard
structure large enough to house an adult human
being, which he had erected in a public space."
Plaintiffs raise two contentions in response to
Defendant's claim of probable cause: (1) § 16-122(b)
only applies to city-owned property, not to a privatelyowned public space such as Zuccotti Park; and (2) the
N.Y.C. Administrative Code does not prohibit the use
of tents in public spaces, it only regulates their use.
Plaintiffs arguments are unavailing.
There is no convincing rationale to exempt
Zuccotti Park from § 16-122(b). The statute applies to
public places, of which Zuccotti Park is a variant, as
Plaintiffs argue in earnest in their Complaint and
motion papers. Gersbacher v. City of New York, No.
1:14-CV-7600-GHW, 2017 WL 4402538, at *7
(S.D.N.Y. Oct. 2, 2017) (accord). There is nothing in
the statute that limits its applicability based upon
who has an ownership interest in a public space, and
Plaintiffs provide no reason as to why this
interpretation should be applied here.
Next, the N.Y.C. Administrative Code
provisions that regulate the use of tents in public
spaces in circumstances authorized by the city4 have
no bearing on whether another provision of the code,
Plaza
Events,
https://wwwl.nyc.gov/site/cecm/permitting/permit-types/plazaevents.page (las accessed January 31, 2019).
4See

34a
such as § 16-122(b), prohibits such use in other
circumstances. Here, Plaintiffs did not have
permission to erect structures or tents in Zuccotti
Park per the rules espoused by Brookfield and
certainly did not have permission from the City.
People v. Nunez, 36 Misc. 3d 172, 180 (Crim. Ct. 2012).
Despite this, Plaintiffs and others erected tents,
including a medical tent, and other structures during
their time at Zuccotti Park. Goykadosh Decl., Ex. C.
¶11-13, ECF No. 110-3. And, the weekend prior to
their removal, protestors also allegedly brought in
"wooden pallets to elevate their tents and erect a
wooden structure .... " Id. at ¶7. Plaintiffs do not
contest these allegations, all of which point to an
attempt to erect structures in contravention of§ 16122(b). Because Plaintiffs attempted to impede the
NYPD from removing the tents and structures that
were in violation of § 16-122(b), the NYPD had
sufficient probable cause to arrest Plaintiffs for
obstructing governmental administration.
ii. Malicious
Retaliation

Prosecution

&

First

Amendment

For malicious prosecution, a plaintiff must
allege "(1) that the defendant initiated a prosecution
against the plaintiff, (2) that the defendant lacked
probable cause to believe the proceeding could
succeed, (3) that the defendant acted with malice, ...
(4) that the prosecution was terminated in the
plaintiffs favor[, and] ( 5) a sufficient postarraignment liberty restraint to implicate the
plaintiffs Fourth Amendment rights." Rohman v. New
York City Transit Auth. (NYCTA), 215 F .3d 208, 215
(2d Cir. 2000) (citations omitted). "To plead a First
Amendment retaliation claim a plaintiff must show:

35a
(1) he has a right protected by the First Amendment;
(2) the defendant's actions were motivated or
substantially caused by [plaintiffs] exercise of that
right; and (3) the defendant's actions caused him some
injury." Smith v. Campbell, 782 F.3d 93, 100 (2d Cir.
2015) (citation omitted).
The Second Circuit has held that "in the
absence of exculpatory facts which became known
after an arrest, probable cause to arrest is a complete
defense to a claim of malicious prosecution." D'Angelo
v. Kirschner, 288 F. App'x 724, 726 (2d Cir. 2008). In
other words, so long as there was probable cause to
arrest Plaintiffs for each of the crimes for which they
were prosecuted, Plaintiffs malicious prosecution will
fail in the absence of evidence to the contrary. The
Second Circuit has also held that "[t]he existence of
probable cause defeats a First Amendment claim
premised on the allegation that defendants arrested a
plaintiff based on a retaliatory motive." Caravalho,
732 F. App'x at 23 (citing Fabrikant, 691 F.3d at 215).
As the Court has established why probable cause to
arrest existed for each offense, Defendant is granted
judgment on the pleadings as to Plaintiffs' malicious
prosecution and First Amendment retaliation claim.
iii. First Amendment Discrimination
As Zuccotti Park is a public forum "the
government may apply content-neutral time, place,
and manner restrictions only if they are 'narrowly
tailored to serve a significant government interest'
and if 'ample alternative channels of communication'
are available." Kass, 864 F.3d at 208 (citing Zalaski v.
City of Bridgeport Police Dep 't, 613 F.3d 336,341 (2d
Cir. 2010) (per curiam)). Plaintiffs discrimination
claim is simply that Defendant's removal of Plaintiffs

36a
could not have been content neutral because (1) police
action was only taken against protestors and not
Brookfield, who allegedly could have been held
accountable by the City for failing to maintain
Zuccotti Park in accordance with the Administrative
Code; and (2) the occupation of the park was in and of
itself Plaintiffs' speech given that the purpose of the
movement was to "Occupy Wall Street," ergo removing
Plaintiffs was an attempt to stifle said speech. Pls.'
Opp. Def. Mot. J. Pleadings 29-30, ECF No. 112.
Drawing all reasonable inferences in favor
Plaintiffs, the Court holds that Defendant's decision
to remove protestors and temporarily close Zuccotti
Park was a content neutral and narrowly tailored
restriction. Plaintiffs' argument that Defendant
selectively applied police action to protestors is
disingenuous when the facts show that Brookfield was
cooperating with Defendant to ensure that it could
maintain its obligations under the Special Permit. In
other words, there was no basis for Defendant to take
action against Brookfield and thus, there is no basis
to infer that Defendant's restrictions were geared
toward the content of Plaintiffs speech.
Furthermore, temporarily removing Plaintiffs
may have stifled a portion of their speech, i.e., the
occupation, but the removal was constitutional
because it was narrowly tailored. "A restriction is
narrowly tailored if it '"promotes a substantial
government interest that would be achieved less
effectively absent the regulation"' and it is '"not
substantially broader than necessary to achieve the
government's interest."' Caravalho, 732 F. App'x at 23
(citing Marcavage, 689 F.3d at 106). As the Second
Circuit noted in Caravalho, New York City has a

37a
substantial interest in ensuring public spaces, like
Zuccotti Park, remain safe and clean. Id. Defendant's
decision to temporarily remove Plaintiffs to redress
the safety issues already described was a narrowly
tailored restriction-Plaintiffs were not being
permanently denied access to Zuccotti Park or being
denied the ability to protest Wall Street. Even if there
were a better way for Defendant to have redressed the
safety issues without hampering one aspect of
Plaintiffs' expression "[a] narrowly tailored restriction
need not be the least restrictive or least intrusive
means of serving the government's interest" to be
constitutional. Id. It being the case that protestors
could return to Zuccotti Park after it was cleaned to
continue their protest or protest elsewhere, the Court
holds that Defendant's actions were constitutional.
Defendant is granted judgment on the pleadings as to
Plaintiffs First Amendment discrimination claim.
b. Fourteenth Amendment Claim
Defendant is also entitled to judgment on the
pleadings as to Plaintiffs' Fourteenth Amendment
claim that Plaintiffs' were evicted without due process
because Plaintiffs fail to identify a property or liberty
interest at stake. "The Due Process Clause of the
Fourteenth Amendment provides that no State shall
'deprive any person of life, liberty, or property,
without due process of law."' Tenenbaum v. Williams,
193 F.3d 581,592 (2d Cir. 1999) (quoting U.S. Const.
amend. XIV§ 1). Plaintiffs assert that the Fourteenth
Amendment applies here because Plaintiffs had a
property and liberty interest in remaining in Zuccotti
Park that they were deprived of without due process
when Defendants removed Plaintiffs without "fair

38a
warning" and without a hearing. Pls.' Reply Supp.
Mot. Partial J. Pleadings 5, ECF No. 115.
When assessing a due process claim, the first
step is to ascertain "whether the plaintiff has been
deprived of a protected interest in 'property' or 'liberty.
'" Am. Mfrs. Mut. Ins. Co. v. Sullivan, 526 U.S. 40, 59
(1999) (quoting U.S. Const. amend. XIV§ 1).
Previously, Plaintiffs asserted that they had a
property interest because the zoning regulations
coupled with the statements of public officials created
an easement granting Plaintiffs continuous access to
Zuccotti Park. Meyers, 2015 WL 6503825, at *4
(S.D.N.Y. Oct. 27, 2015), vacated on other grounds,
675 F. App'x 93 (2d Cir. 2017). The Court rejected this
argument and held that no easement existed to
provide a basis for a Fourteenth Amendment claim.
Id. at *4-*6.
Plaintiffs now assert that their property
interest is an express easement that stems from
Plaintiffs status as third-party beneficiaries of the
contract between U.S. Steel (the original developer of
Zuccotti Park) and the City that established Zuccotti
Park as a permanent open park for the public benefit.
Plaintiffs rely primarily on McNeill v. New York City
Housing Authority, 719 F. Supp. 233, 248-49 (S.D.N.Y.
1989). In McNeill, the court held that public housing
tenants could bring an action to enforce a contract
between their landlord and the New York City
Housing Authority because the tenants were third
party beneficiaries of the contract and thus, had
standing. Id. The court reasoned that the plaintiffs
were "the sole and direct third-party beneficiaries" of
the contracts and held that if plaintiffs' landlord
breached the contract and the City failed to enforce

39a
the contract, then the tenants could "undertake such
enforcement themselves." Id. at 249. McNeill,
however, does not apply to the case at bar.
At the outset, McNeill is not binding on the
Court; but, even if it were, the court in McNeill limited
its holding to the facts of that case noting that "[i]n
finding that plaintiffs are intended third-party
beneficiaries, the [c]ourt does not open the door for all
beneficiaries of government contracts to attempt to
enforce such contracts." Id. Moreover, the question in
McNeill was not whether the tenants had a property
interest at stake-this was undisputed as plaintiffs
faced the possibility of permanent eviction from their
homes as compared to protestors who were
temporarily removed from a public space-rather, the
question was whether tenants had standing to sue to
enforce a contract to which they were not signatories.
As such, McNeill does not stand for the proposition
that an individual's status as third-party beneficiary
creates a property interest. Rather, McNeill holds that
a third-party beneficiary to a contract between a
municipality and a private party has standing to bring
a suit under § 1983 where the municipality and
private party's failure to meet their contractual duties
harms the beneficiary's pre-existing property rights.
Consequently, even assuming Plaintiffs were the
intended third-party beneficiaries of the contract
between U.S. Steel and the City, this fact alone would
be insufficient to find a cognizable property interest
under the Fourteenth Amendment.
Plaintiffs also assert that their right to due
process was violated when they were arrested without
fair warning from Defendant that Plaintiffs
occupation was unlawful. In their motion for judgment

40a
on the pleadings, Plaintiffs argue that Defendant's
defense of probable cause cannot apply to Fourteenth
Amendment claims. In making their argument,
Plaintiffs cite Cox v. Louisiana, 379 U.S. 559 (1965)
for the proposition that public officials violate due
process where they do not provide fair warning to
protestors before arresting them for violating in the
law. Pls. Mem. Supp. Mot. J. Pleadings 11-12, ECF
No. 107. Though the Court has already explained why
Plaintiffs' motion is moot and the Court need not
decide it, the Court will treat Cox as Plaintiffs' basis
for arguing they had a liberty interest under the
Fourteenth Amendment in this case that was violated
without due process.
In Cox, a group of individuals protesting
segregation on a street opposite to a courthouse were
arrested and convicted of violating a statute that
prohibited picketing or parading in or near a
courthouse. Cox v. State of La., 379 U.S. 559,568
(1965). Prior to the protest, B. Elton Cox, the leader of
the protestors, sought permission for the
demonstration and "the highest police officials of the
city, in the presence of the Sheriff and Mayor, in effect
told the demonstrators that they could meet where
they did, 101 feet from the courthouse steps, but could
not meet closer to the courthouse." Id. But, even after
the protestors followed the officials' instructions, they
were arrested because officials believed their protest
breached the peace. Id. at 571- 72.
In reversing Cox's conviction for violating the
statute, the Supreme Court held: (1) because the
dispersal order based on the breach of peace rationale
was not valid, Cox was "still justified in his continued
belief that because of the original official grant of

41a
permission he had a right to stay where he was for the
few additional minutes required to conclude the
meeting," Id. at 572; and (2) "convicting the
demonstrators of demonstrating near the courthouse
violated due process because the demonstrators were
entitled to rely upon the police's interpretation of the
statute, and thus lacked fair warning that they were
violating the law." Garcia v. Does, 779 F.3d 84, 94 (2d
Cir. 2015) (citing Cox, 379 U.S. at 571). Taken
together, the Second Circuit has explained that "[a]s a
matter of law, Cox establishes that, under some
circumstances, demonstrators or others who have
been advised by the police that their behavior is lawful
may not be punished for that behavior. The extent of
that principle is less than clear .... " Id. at 96
(emphasis added).
Although the case before the Court shares some
similarities with Cox, these similarities are
superficial-Cox is readily distinguished. Plaintiffs
argue that the dispersal order was unlawful because
of the Mayor's prior statement granting Plaintiffs
permission to protest in Zuccotti Park, meaning
Plaintiffs were justified in their noncompliance. But,
unlike Cox, Mayor Bloomberg's prior statement did
not advise Plaintiffs that the behavior for which they
were evicted was lawful. Bloomberg's statement was
only that protestors could remain in the park so long
as they did not violate any laws-Bloomberg did not
state they could erect tents or other structures that
violated N.Y.C. Administrative Codes and Zuccotti
Park Rules, and that also created potential fire
hazards. Put simply, the protestors in Cox were
arrested for doing what they were told they could do,
which was unlawful, whereas Plaintiffs were arrested

42a
for doing what they were never given permission to do
in the first place.
And as to Plaintiffs' claim of a lack of fair
warning prior to their arrest, the NYPD tried to
remove protestors' tents at least twice before the
events at issue here, and one of those instances
appears to be after Bloomberg's statement.
Goykadosh Decl., Ex. C. ¶¶11-13, ECF No. 110-3. Both
of these attempts, neither of which resulted in
criminal consequences for protestors as far as the
Court is aware, arguably gave Plaintiffs constructive
notice and fair warning that the way in which they
were occupying Zuccotti Park was unlawful further
dampening their Fourteenth Amendment claim.
Accordingly, Plaintiffs fail to allege a violation of their
Fourteenth Amendment rights and Defendant is
entitled to judgment on the pleadings.
CONCLUSION
For the reasons set forth above, Defendant's
motion is GRANTED; Plaintiffs' motion is DENIED as
moot.
SO ORDERED.
Dated: March 28, 2019
New York, New York
ANDREW L. CARTER, JR.
United States District Judge

43a
Appendix C
Order of
The United States District Court for
The Southern District of New York
Amending Prior Order of Dismissal
UNITED STATES
DISTRICT COURT
SOUTHERN DISTRICT
OF NEW YORK
------------------------------------x
CHARLES MEYERS,
:
ET AL.,
:
Plaintiffs, :
-against:
THE CITY OF NEW
:
YORK, ET AL.,
:
Defendants. :
-----------------------------------x

1:14-cv-09142 (ALC)
ORDER

ANDREW L. CARTER, JR., United States District
Judge:
Plaintiffs move pursuant to Fed. R. Civ. P.
60(a), or alternatively Fed. R. Civ. P. 60(b), for the
Court to amend its October 20, 2017 Opinion and
Order to clarify that the Plaintiffs' claims against the
three individual Defendants-Michael Bloomberg,
Raymond Kelly, and Joseph Esposito-are dismissed,
and not their claims against the fourth Defendant, the
City of New York. Plaintiffs essentially argue that the
Court erred in dismissing the case in its entirety. The
Court agrees. For the reasons that follow, the motion
is GRANTED, and the matter is REOPENED.
BACKGROUND

44a
On October 27, 2015, the Court ruled on
Defendants' motion to dismiss. In its Opinion and
Order, the Court denied qualified immunity to the
three individual Defendants, denied dismissal of the
Monell claim against the City of New York, and
granted Plaintiffs leave to amend the Complaint as to
certain additional bases for liability asserted in the
Complaint. ECF No. 47. Afterwards, Plaintiffs filed
their Amended Complaint. ECF No. 48. On November
24, 2015, Defendants appealed the Court's denial of
qualified immunity as to the three individual
Defendants, and on February 2, 2017, the Second
Circuit remanded to the Court for reconsideration of
the three individual Defendants' claims of qualified
immunity, in light of the Second Circuit opinion in
Garcia v. Does, 779 F.3d 84 (2d Cir. 2015) ("Garcia")
and in light of the allegations of the Amended
Complaint. On remand, the Court held in the October
20, 2017 Opinion and Order that the three individual
Defendants were entitled to qualified immunity. ECF
No. 68.
In the October 20, 2017 Opinion, the Court
stated that the "Defendants' motion to dismiss is
granted in its entirety." ECF No. 68, at 1. On October
26, 2017, the Clerk of the Court filed a Judgment of
Dismissal in favor of Defendants and terminated the
action. ECF No. 69. Plaintiffs argue that the phrase
"in its entirety" is either a clerical error because it does
not accurately reflect the decision of the Court, or the
result of inadvertence because it is unsupported by the
reasoning of the decision and outside the scope of the
Second Circuit Mandate to the Court. Therefore,
Plaintiffs ask for relief pursuant to Rule 60.
DISCUSSION

45a
Rule 60(b)(1) allows for relief from judgment
based on "mistake, inadvertence, surprise, or
excusable neglect." Fed. R. Civ. P. 60(b)(l). Rule
60(b)(l) is available for a district court to correct legal
errors by the court. In re 310 Assocs., 346 F.3d 31, 35
(2d Cir. 2003); see also Parks v. US. Life & Credit
Corp., 677 F.2d 838, 839 (11th Cir. 1982) (per curiam)
("The 'mistakes' of judges may be remedied under this
provision.").
As a threshold matter, Defendants argue that
Plaintiffs filing of a notice of appeal (ECF No. 72)
divests this court of jurisdiction. Under Fed. R. App.
P. 4(a)(4)(A)(vi) and (B)(i), the district court retains
jurisdiction over timely filed motions for relief from
the judgment pursuant to Federal Rule of Civil
Procedure 60(b)-despite the filing of a notice of appeal
before the1 court's disposal of them. See id. Fed. R.
App. P. 4(a)(4); see also Brewer v. Hashim, No. 2:16cv-326, 2017 WL 3433904, at *2 (D. Vt. Aug. 10, 2017).
Where, as here, the notice of appeal is filed after a
Rule 60(b) motion is timely filed, the notice only
becomes effective when the motion is decided. See Fed.
R. App. P. 4(a)( 4)(B)(i) ("If a party files a notice of
appeal after the court announces or enters a
judgment-but before it disposes of any motion listed in
Rule 4(a)(4)(A)-the notice becomes effective to appeal
a judgment or order, in whole or in part, when the

"If a party files in the district court any of the following motions
under the Federal Rules of Civil Procedure--and does so within
the time allowed by those rules--the time to file an appeal runs
for all parties from the entry of the order disposing of the last
such remaining motion: [motion] for relief under Rule 60 if the
motion is filed no later than 28 days after the judgment is
entered." Fed. R. App. P. 4(a)(4)(A)(vi).

1

46a
order disposing of the last such remaining motion is
entered."). The timely filing of the Plaintiffs' Rule
60(b) motion, thus, allows the Court to retain
jurisdiction over Plaintiffs' motion, despite the
subsequent filing of their notice of appeal. See, e.g.,
Rudgayzer v. Google, Inc., 13 CV 120, 2014 WL
12676233, at *2 (E.D.N.Y. Feb. 10, 2014).
As to the merits of Plaintiffs' motion, relief is
warranted. The Mandate of the Second Circuit was
limited to an analysis of qualified immunity as to the
three individual Defendants, and the reasoning of the
October 20, 201 7 Opinion was limited to that issue,
neither discussing the dismissal of Defendant City of
New York nor Plaintiffs' Monell claim against the
Defendant City. Moreover, as Defendants concede
(ECF No. 74, at 2), a municipality cannot be shielded
by qualified immunity, Curley v. Village of Suffern,
268 F.3d 65, 71 (2d Cir. 2001), and liability may attach
to the municipality even when individual defendants
are shielded by qualified immunity. Fisk v. Letterman,
501 F. Supp. 2d 505, 528 (S.D.N.Y. 2007). Accordingly,
under Rule 60(b)(1), the Court may correct the
judgment to limit dismissal as to those three
individual defendants.
CONCLUSION
Plaintiffs' motion is granted. The October 20,
2017 Opinion is amended to limit dismissal to
individual Defendants Michael Bloomberg, Raymond
Kelly, and Joseph Esposito from the action, and the
case is reopened.
SO ORDERED.
Dated: December 5, 2017, New York, New York

47a
Appendix D
Order of
The United States District Court for
The Southern District of New York
Dismissing Action In Its Entirety
Case 1:14-cv-09142-ALC
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
----------------------------------------x
Meyers et al
Plaintiffs,
-againstCity of New York et al,
Defendants.
----------------------------------------x
OPINION AND ORDER
ANDREW L. CARTER, JR., United States District
Judge:
Plaintiffs bring this action against Defendants,
alleging violation of their constitutional rights,
unlawful arrest, imprisonment, and malicious
prosecution in retaliation for engaging in political
speech. On October 27, 2015, the Court issued an
Opinion and Order, familiarity with which is
assumed, granting in part and denying in part
Defendants' motion to dismiss. Subsequently,
Plaintiffs filed an amended complaint, and
Defendants filed an interlocutory appeal based on
qualified immunity. In a February 2, 2017 summary
order, the Second Circuit vacated the Court's Opinion
and Order and remanded the matter back to the Court
so it can undertake a complete analysis of qualified

48a
immunity in light of the Second Circuit's holding in
Garcia v. Does, 779 F.3d 84 (2d Cir. 2014) and the
Amended Complaint. Meyers v. City of New York, 675
Fed. App'x 93 (2d Cir. 2017). Specifically, the Second
Circuit requested that the Court conduct an adequate
analysis of arguable probable cause in light of Garcia.
After reviewing subsequent letter briefs and the
Amended Complaint,1 the Court finds that qualified
immunity shields Defendants from Plaintiffs' claims.
For the reasons that follow, Defendants' motion to
dismiss is granted in its entirety.
GOVERNING LAW
Public officials are entitled to qualified
immunity and thus shielded from liability for civil
damages if either (1) their actions did not violate
clearly established law, or (2) it was objectively
reasonable for them to believe that their actions did
not violate such law. Garcia v. Does, 779 F.3d 84, 92
(2d Cir. 2015). In a suit for false arrest, an officer is
entitled to qualified immunity "if either (a) it was
objectively reasonable for the officer to believe that
probable cause existed, or (b) officers of reasonable
competence could disagree on whether the probable
cause test was met." Id. The Second Circuit has
referred to the latter category as "arguable probable
cause." Cerrone v. Brown, 246 F.3d 194, 202-03 (2d
Cir. 2001). The Court's prior opinion focused on the
The additional allegations in the Amended Complaint need not
be summarized as it does not change the Court's analysis. As
familiarity with the Court's vacated opinion, and thus the factual
allegations supporting the claims in the Amended Complaint, is
assumed, a reiteration of the facts is unnecessary.
1

49a
first basis, while neglecting the second basis.
Although "[t]here is a seeming circularity to inquiring
first whether the circumstances as perceived by a
reasonably prudent [public official] would justify the
belief that the persons to be arrested had committed a
crime, and, after finding that the circumstances would
not justify such a belief, proceeding to inquire whether
a [public official] could reasonably believe that the
[official's] conduct was lawful," Oliveria v. Mayer, 23
F.3d 642, 648 (2d Cir. 1994), no inquiry into qualified
immunity is complete, as the Second Circuit has
instructed, without considering whether "one
'reasonably' acted unreasonably." Id. at 648-49
(quoting Anderson v. Creighton, 483 U.S. 635,643
(1987)).
Arguable probable cause for arrest is also a
defense to any related claims for First Amendment
retaliation. Wiles v. City of New York, 13-cv-2898,
2016 WL 6238609, at *11 (citing Blue v. Koren, 72 F.3d
1075, 1083 n.5 (2d Cir. 1995)); see also Singer v. Fulton
County Sheriff, 63 F.3d 110, 120 (2d Cir. 1995). For
example, in Magnotti v. Kuntz, the plaintiff brought a
First Amendment retaliation claim and the Second
Circuit refused to inquire into the defendant's motive
for seeking an arrest warrant because there was
arguable probable cause for the warrant-therefore
entitling the defendant to qualified immunity. 918
F.2d 364, 367-68 (2d Cir. 1990). Accordingly, the Court
should have considered whether there was arguable
probable cause for any of the three relevant offensestrespass, disorderly conduct, and obstruction of
government
administration-before
considering
qualified immunity in the context of the First
Amendment retaliation claim.

50a
DISCUSSION
The individual defendants are entitled to
qualified immunity on the facts alleged here. Garcia
is controlling. Plaintiffs alleged that they ignored the
officers' announcement by bullhorn to leave the park
and take all their personal possessions, implicating
potential violations for trespass, disorderly conduct,
and obstruction of government administration.
Plaintiffs justify their refusal to follow the officers'
orders because they reasonably believed that they
were in compliance with all applicable laws and they
could not be evicted absent a court order or an
emergency. Thus, the legal theory Plaintiffs relied on
was untested at the time (at least by any federal
court). Am. Compl. ¶¶5-6. The problem with Plaintiffs'
defense is that it requires the officers "to engage in an
essentially speculative inquiry into the potential state
of mind" of the protestors. Garcia, 779 F.3d at 84. The
Second Circuit has stated that the law of qualified
immunity does not require such an inquiry. Id. The
correct inquiry is whether plaintiffs' defense "rests on
facts that are so unclear, or a legal theory that is not
so clearly established, that it cannot be said that any
reasonable officer would understand that an arrest
under the circumstances would be unlawful." Id.
The officials here faced "ambiguities of fact and
law." Id. There was the uncertainty surrounding the
status of Zuccotti as a privately owned public space
and its implications, and the potential fire hazard the
protestors' gathering posed (according to the City).
There was also uncertainty as to whether the
Plaintiffs' legal defense would prove viable. This Court
found that, as alleged in the Complaint, Plaintiffs'
honest belief that they had a legal right to remain in

51a
Zuccotti Park and that the officers were aware of such
belief generally negated a finding of probable cause to
arrest for any of the three relevant violations, but that
same belief is insufficient to negate arguable probable
cause under Garcia. Given the circumstances the
officials faced, government officials could reasonably
disagree that the Plaintiffs' refusal to leave rendered
their continued presence unlawful.
Plaintiffs' argument that Garcia calls for a
contrary conclusion is unavailing. In Garcia, the
Court held that the officials were entitled to qualified
immunity where the plaintiff-protestors alleged that
they had implied permission to enter the roadway. Id.
at 96. Plaintiffs argue that the conduct here involved
express permission by Mayor Bloomberg, who
announced on October 10, 2011 that the Wall Street
protestors could stay indefinitely as long as they
comply with all laws (Am. Compl. ,r 119, Ex. G), not
implied permission as in Garcia. Plaintiffs essentially
argue there was no ambiguity in regards to Plaintiffs'
having permission to stay. The argument ignores that
officers' orders to disperse from the park could be
reasonably construed to dispel whatever permission to
remain the Plaintiffs inferred from Bloomberg's
statement from a month prior. Accordingly, under
these facts, officials faced enough ambiguity that
arguable probable cause is warranted, thus entitling
them to qualified immunity.
CONCLUSION
For the foregoing reasons, Defendants' motion
to dismiss is granted.
SO ORDERED.

52a
Dated: October 20, 2017
New York, New York
ANDREW L. CARTER, JR.
United States District Judge

53a
Appendix E
Summary Order of
The United States Court of Appeals for
The Second Circuit
Vacating and Remanding
15-3841
Meyers v. City of New York
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
At a stated Term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, at 40 Foley
Square, in the City of New York, on the 2nd day of
February, two thousand seventeen.
Present:
ROBERT A. KATZMANN,
Chief Judge,
RALPH K. WINTER,
Circuit Judge,
SIDNEY H. STEIN,
District Judge.*
CHARLES MEYERS, JOHN
STREKAL, MILES WALSH,

BAKER,

JUSTIN

Plaintiffs-Appellees,
-v-

No. 15-3841

54a
CITY OF NEW YORK, MICHAEL BLOOMBERG,
individually and in his official capacity as former
Mayor of the City of New York, CHIEF OF
DEPARTMENT JOSEPH J. ESPOSITO, Individually
and in his official capacity, NYPD COMMISSIONER
RAYMOND KELLY, individually and in his official
capacity,
Defendants-Appellants,
* Judge Sidney H. Stein of the United States District
Court for the Southern District of New York, sitting
by designation.
OFFICER DOES 1 THROUGH 100, NYPD PATROL
OFFICER FREDDY YNOA, NYPD Patrol Officer,
Shield # 18851; HANS FRANCOIS, Shield #25825,
JOHN ZARANIS, Shield # 09645, VASILE
DUBOVICI, Shield # 28892,
Defendants.
For Plaintiffs-Appellees:
PAUL L. MILLS, Law Office of Paul L. Mills, New
York, NY.
For Defendants-Appellants:
MAX MCCANN, Assistant Corporation Counsel,
(Richard Dearing and Devin Slack, on the brief), for
Zachary W. Carter,
Corporation Counsel of the City of New York, New
York, NY.
Appeal from the United States District Court
for the Southern District of New York (Carter, J.).

55a
ON CONSIDERATION WHEREOF, IT IS
HEREBY ORDERED, ADJUDGED, and DECREED
that the judgment of the district court is VACATED
and REMANDED.
Plaintiffs-appellees, participants in an Occupy
Wall Street protest, were arrested and charged with
trespass and disorderly conduct after they refused a
police order to vacate Zuccotti Park in lower
Manhattan. Plaintiffs brought this suit challenging
the lawfulness of their removal from Zuccotti Park
and the decisions of defendants-appellants, New York
City officials at the time, to arrest and charge
plaintiffs. The district court dismissed several of
plaintiffs’ claims but left intact plaintiffs’ Fourth
Amendment claims for false arrest and malicious
prosecution and First Amendment retaliation claims.
The district court also denied qualified immunity to
defendants-appellants, which allowed defendantsappellants to bring the present interlocutory appeal.
See Mitchell v. Forsyth, 472 U.S. 511, 530 (1985). We
assume the parties’ familiarity with the underlying
facts, the procedural history of the case, and the issues
on appeal.
“We review a district court’s denial of qualified
immunity on a motion to dismiss de novo, accepting as
true the material facts alleged in the complaint and
drawing all reasonable inferences in plaintiffs’ favor.”
Garcia v. Does, 779 F.3d 84, 91 (2d Cir. 2014) (internal
quotation marks omitted).
“Qualified immunity protects public officials
from liability for civil damages when one of two
conditions is satisfied: (a) the defendant’s action did
not violate clearly established law, or (b) it was
objectively reasonable for the defendant to believe

56a
that his action did not violate such law.” Id. at 92. For
instance, “[a]n officer is entitled to qualified immunity
against a suit for false arrest if he can establish that
he had arguable probable cause to arrest the plaintiff.”
Id. (internal quotation marks omitted).
Although the district court considered the issue
of probable cause, the district court needed also to
conduct adequate analysis of arguable probable cause
and of whether qualified immunity protects
defendants-appellants – a more “forgiving” standard
than the probable cause inquiry. Amore v. Novarro,
624 F.3d 522, 530, 536 (2d Cir. 2010). In particular,
we respectfully think the district court did not
sufficiently take into account our holding in Garcia:
police officers [are not required] to engage in
an essentially speculative inquiry into the
potential state of mind of . . . [arrestees].
Neither the law of probable cause nor the law
of qualified immunity requires such
speculation. Whether or not a suspect
ultimately turns out to have a defense, or even
whether a reasonable officer might have some
idea that such a defense could exist, is not the
question. An officer still has probable cause to
arrest, and certainly is entitled to qualified
immunity, so long as any such defense rests
on facts that are so unclear, or a legal theory
that is not so clearly established, that it
cannot be said that any reasonable officer
would understand that an arrest under the
circumstances would be unlawful.
Garcia, 779 F.3d at 96 (citations omitted).

57a
Upon remand, the district court should
undertake a complete analysis of the qualified
immunity issue. The district court should do so in light
of the Amended Complaint filed in this case.
We have considered the parties’ remaining
arguments on appeal and find in them no basis for
altering our decision. For the foregoing reasons, the
judgment of the district court is VACATED and
REMANDED.
FOR THE COURT:
CATHERINE O’HAGAN WOLFE, CLERK

58a
Appendix F
Order of
The United States Court of Appeals for
The Second Circuit
Denying Rehearing
ORDER
Docket No. 19-892
UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 9th day of June, two
thousand twenty.
Charles Meyers, John Baker, Justin Strekal, Miles
Walsh,
Plaintiffs - Appellants,
v.
City of New York, Michael R. Bloomberg, individually
and in his official capacity as former Mayor of the City
of New York, Chief of Department Joseph J. Esposito,
individually and in his official capacity, NYPD
Commissioner Raymond Kelly, individually and in his
official capacity, NYPD Patrol Officer Freddy Ynoa,
Shield # 18851, Hans Francois, Shield # 25825, John
Zaranis, Shield # 09645, Vasile Dubovici, Shield #
28892,
Defendants – Appellees

59a
Officer Does 1-100,
Defendant.
Appellants, Charles Meyers, John Baker,
Justin Strekal and Miles Walsh, filed a petition for
panel rehearing, or, in the alternative, for rehearing
en banc. The panel that determined the appeal has
considered the request for panel rehearing, and the
active members of the Court have considered the
request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is
denied.
FOR THE COURT
Catherine O’Hagen Wolfe, Clerk

